HHS/OIG, Audit -"Audit of Outlier Payments Made to Massachusetts General Hospital Under the Outpatient Prospective Payment System for the Period August 1, 2000 Through June 30, 2001,"(A-01-02-00500)
Department
of Health and Human Services
"Audit of Outlier Payments Made to Massachusetts General Hospital Under the Outpatient Prospective Payment System
for the Period August 1, 2000 Through June 30, 2001," (A-01-02-00500)
June 20, 2002
Complete
Text of Report is available in PDF format (460 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether outpatient claims with outlier payments were billed in accordance
with Medicare laws and regulations.  Based on our review of 30 judgmentally selected outpatient hospital claims with
outlier payments totaling $95,464, we found that for 14 of the 30 claims Massachusetts General Hospital (MGH) received
overpayments totaling $9,803 because the hospital billed the incorrect number of units for the drug intravenous immune
globulin (IVIG).  MGH attributes problems converting clinical units of IVIG to billable units to complexities and
inconsistencies in the billing guidelines during the outpatient prospective payment system implementation periods.  MGH
performed an internal review of all outpatient claims with the drug IVIG for the period August 1, 2000 through December
31, 2001 and identified additional overpayments of $156,023.  We commend the hospital for its efforts to identify
additional overpayments and strengthen controls for billing IVIG.